July 12, 2012


TO:             Nancy Gunderson
                Deputy Assistant Secretary for Grants and Acquisition Policy
                 and Accountability


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Florida State University Did Not Always Claim Selected Costs Charged Directly
                to Department of Health and Human Services Awards in Accordance With
                Federal Regulations and National Institutes of Health Guidelines
                (A-04-11-01095)


Attached, for your information, is an advance copy of our final report on selected costs charged
by Florida State University directly to Department of Health and Human Services awards. We
will issue this report to Florida State University within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Kay L. Daly, Assistant Inspector General for Audit Services, at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov or Lori S. Pilcher, Regional
Inspector General for Audit Services, Region IV, at (404) 562-7750 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-04-11-01095.


Attachment
                                                               O FFICE OF A UDIT S ERVICES , R EGION IV
                                                                61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                                 A TLANTA , GA 30303
July 19, 2012

Report Number: A-04-11-01095

Eric J. Barron, Ph.D.
President
Florida State University
211 Westcott Building
Tallahassee, FL 32306-1470

Dear Dr. Barron:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Florida State University Did Not Always Claim Selected
Costs Charged Directly to Department of Health and Human Services Awards in Accordance
With Federal Regulations and National Institutes of Health Guidelines. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Kay L. Daly, Assistant Inspector General for Audit Services, at (202) 619-1157 or
through email at Kay.Daly@oig.hhs.gov or Lori S. Pilcher, Regional Inspector General for Audit
Page 2 –Eric J. Barron, Ph.D.


Services, Region IV, at (404) 562-7750 or through email at Lori.Pilcher@oig.hhs.gov. Please refer
to report number A-04-11-01095 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


Direct Reply to HHS Action Official:

Director, Division of Audit Resolution
Office of Grant and Acquisition Management
Assistant Secretary of Management and Budget
U.S. Department of Health and Human Services
Wilbur J. Cohen Building, Room 1067
330 Independence Avenue, SW
Washington, DC 20201
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


FLORIDA STATE UNIVERSITY DID NOT
  ALWAYS CLAIM SELECTED COSTS
CHARGED DIRECTLY TO DEPARTMENT
 OF HEALTH AND HUMAN SERVICES
   AWARDS IN ACCORDANCE WITH
    FEDERAL REGULATIONS AND
 NATIONAL INSTITUTES OF HEALTH
           GUIDELINES



                        Daniel R. Levinson
                         Inspector General

                            July 2012
                          A-04-11-01095
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                   EXECUTIVE SUMMARY


BACKGROUND

Florida State University

Florida State University (the University) is a State institution located in Tallahassee, Florida.
During the period October 1, 2008, through September 30, 2010, the University claimed
reimbursement for approximately $37.7 million in costs incurred on 217 grants, contracts, and
other agreements (awards) with components of the Department of Health and Human Services
(HHS). In addition to its regular funding through grants and contracts, the University was
awarded 28 grants totaling $8.6 million in funding provided by the American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5.

Cost Principles

By accepting HHS awards, the University agreed to comply with regulations governing the use
of Federal funds and to ensure that costs charged to those awards were allowable under the cost
principles established in 2 CFR part 220, Appendix A. These cost principles require that, to be
allowable, costs must be reasonable, be allocable, and conform to any exclusions or limitations
set forth in the cost principles or sponsored agreements. In addition, National Institutes of
Health (NIH) awards are subject to NIH guidelines, which include limitations on salary costs.

Award Administration

The University’s Division of Sponsored Research accepts and administers awards on behalf of
the University. The Division of Sponsored Research is responsible for reviewing transactions
proposed by colleges, departments, and principal investigators to ensure that those transactions
fully comply with Federal regulations.

Principal investigators are responsible for all programmatic and administrative aspects of an
award, including the conduct of research or other activity described in a proposal for an award.

OBJECTIVE

Our objective was to determine whether the University claimed selected costs charged directly to
HHS awards in accordance with Federal regulations and applicable guidelines.

SUMMARY OF FINDINGS

The University did not always claim selected costs charged directly to HHS awards in
accordance with Federal regulations and NIH guidelines. In our sample of 100 salary
transactions, 53 were allowable but 47 were not, and in our sample of 100 nonsalary transactions,
55 were allowable but 45 were not. Based on our sample results, we estimated that, of



                                                 i
approximately $10.6 million in transactions, the University charged approximately $3 million in
unallowable transactions to HHS awards during fiscal years 2009 and 2010.

These unallowable transactions occurred because the University did not provide adequate
oversight to ensure consistent compliance with Federal regulations. Although its finance and
accounting procedures often incorporated text from Federal regulations, the University largely
left it to the discretion of its individual colleges, departments, and principal investigators to
interpret the procedures correctly and to comply with Federal regulations. In addition, the
University’s Division of Sponsored Research did not review transactions to ensure that they
complied with Federal regulations.

RECOMMENDATIONS

We recommend that the University:

   •   refund $2,977,548 to the Federal Government and

   •   enhance oversight of charges to Federal awards to ensure consistent compliance with
       Federal regulations.

UNIVERSITY COMMENTS

In written comments on our draft report, the University disagreed with our overall findings.
Specifically, the University stated that:

   •   66 of the 71 salary transactions that we questioned were allowable, either in whole or in
       part and

   •   55 of the 63 nonsalary transactions that we questioned were allowable, either in whole or
       in part.

The University also took exception to our methodology for extrapolating our sample results and
conclusions about the University’s internal controls.

The University’s written comments included a transaction-by-transaction discussion of our
findings and additional supporting documentation that had not been provided to us during our
fieldwork. These comments, excluding this additional information, are included as Appendix E.
The University requested that we not include the additional information in the final report.

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on our analysis of the additional information that the University provided with its
comments on our draft report, we reduced the number of unallowable salary transactions from 71
to 47 and the number of unallowable nonsalary transactions from 63 to 45. This reduction of
unallowable transactions decreased our recommended overpayment recovery from $5.8 million
to approximately $3 million.

                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ...........................................................................................................          1
              Florida State University .....................................................................................              1
              Cost Principles ...................................................................................................         1
              Award Administration .......................................................................................                1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                     1
               Objective ............................................................................................................     1
               Scope ..................................................................................................................   1
               Methodology ......................................................................................................         2

FINDINGS AND RECOMMENDATIONS .......................................................................... 3

          FEDERAL REGULATIONS AND
            NATIONAL INSTITUTES OF HEALTH GUIDELINES ....................................... 4

          UNALLOWABLE COSTS ........................................................................................... 6
              Salary Costs ....................................................................................................... 6
              Nonsalary Costs ................................................................................................. 7

          INADEQUATE CONTROLS ....................................................................................... 7

          ESTIMATE OF UNALLOWABLE COSTS................................................................. 8

          RECOMMENDATIONS ............................................................................................... 8

          UNIVERSITY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................ 8
               University Comments ........................................................................................ 8
               Office of Inspector General Response ............................................................... 8
               Salary Costs: Transactions Involved Administrative and
                 Clerical Type Work………………………………………………………….. 9
               Salary Costs: Documentation Did Not Corroborate
                 Amount of Effort Charged………………………………………………….... 9
               Salary Costs: Transactions Not Supported
                With Sufficient Documentation …………………………………………….. 10
               Salary Costs: Transactions Did Not Comply With
                National Institutes of Health Guidelines ………………………………...….. 10
               Nonsalary Costs: Transactions Not Supported
                With Sufficient Documentation ………………………………...….............. 11
               Nonsalary Costs: Transactions for General-Use Supplies …………………....11


                                                                     iii
         Nonsalary Costs: Specialized Service Centers’ Costs Not Charged
           in Accordance With Federal Regulations…………………………………12
         Nonsalary Costs: Transactions Not Reasonable……………………………13
         Statistical Methodology……………………………………………………..13
         Internal Controls…………………………………………………………….14

APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY—SALARY TRANSACTIONS

    B: SAMPLE DESIGN AND METHODOLOGY—NONSALARY TRANSACTIONS

    C: SAMPLE RESULTS AND ESTIMATES—SALARY TRANSACTIONS

    D: SAMPLE RESULTS AND ESTIMATES—NONSALARY TRANSACTIONS

    E: UNIVERSITY COMMENTS




                                   iv
                                       INTRODUCTION

BACKGROUND

Florida State University

Florida State University (the University) is a State institution located in Tallahassee, Florida.
During the period October 1, 2008, through September 30, 2010, the University claimed
reimbursement for approximately $37.7 million in costs incurred on 217 grants, contracts, and
other agreements (awards) with components of the Department of Health and Human Services
(HHS). In addition to its regular funding through grants and contracts, the University was
awarded 28 grants totaling $8.6 million in funding provided by the American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (Feb. 17, 2009).

Cost Principles

The HHS grant administration rules require recipients of grant awards to comply with
regulations governing the use of Federal funds and to ensure that costs charged to those awards
were allowable under the applicable cost principles (45 CFR § 74.27(a)). The cost principles for
educational institutions are established in 2 CFR part 220 (Office of Management and Budget
(OMB) Circular A-21). These cost principles require that, to be allowable, costs must be
reasonable, be allocable, and conform to any exclusions or limitations set forth in the cost
principles or sponsored agreements. In addition, National Institutes of Health (NIH) awards are
subject to NIH guidelines, which include limitations on salary costs.

Award Administration

The University’s Division of Sponsored Research accepts and administers awards on behalf of
the University. The Division of Sponsored Research is responsible for reviewing transactions
proposed by colleges, departments, and principal investigators to ensure that those transactions
fully comply with Federal regulations.

Principal investigators are responsible for all programmatic and administrative aspects of an
award, including the conduct of research or other activity described in a proposal for an award.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the University claimed selected costs charged directly to
HHS awards in accordance with Federal regulations and applicable guidelines.

Scope

Our audit covered $2.2 million in salary transactions and $8.4 million in nonsalary transactions
claimed for reimbursement from October 1, 2008, through September 30, 2010 (fiscal years

                                                 1
(FY) 2009 and 2010). We limited the audit to grants, contracts, and other agreements between
the University and organizational components of HHS, including NIH, the Administration for
Children and Families, and the Health Resources and Services Administration. We did not
evaluate transactions charged to the University’s agreements with other Federal departments and
agencies.

We limited our assessment of internal controls to the University’s policies and procedures for
charging costs to Federal awards. We conducted our fieldwork between December 2010 and
May 2011 at the University’s offices in Tallahassee, Florida.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal regulations and NIH guidelines;

    •   reviewed the University’s policies and procedures for charging costs to Federal awards;

    •   reviewed the University’s Cost Accounting Standards Board Disclosure Statement
        (DS-2); 1

    •   reviewed the University’s account codes and identified accounts that we considered
        administrative in nature;

    •   obtained from the University a list of transactions from these accounts, including
        $2.2 million in salary transactions and $18 million in nonsalary transactions charged
        directly to HHS awards;

    •   removed transactions involving scholarships, indirect cost revenue, and low-dollar
        transactions (less than $100 for salary and less than $10 for nonsalary) to arrive at our
        audit universe, including $2.2 million in salary transactions and $8.4 million in nonsalary
        transactions;

    •   selected and determined the allowability of statistical samples of 100 salary transactions
        (Appendix A) and 100 nonsalary transactions (Appendix B);

    •   computed the facilities and administrative (F&A) costs related to these unallowable
        transactions; and

    •   estimated the unallowable amounts that were charged to HHS awards (Appendixes
        C and D).


1
 Educational institutions that receive aggregate sponsored agreements totaling $25 million or more are required to
disclose their cost accounting practices by filing a disclosure statement (DS-2). The University has submitted a
DS-2 to the HHS Division of Cost Allocation.


                                                         2
We initially evaluated the sample transactions based on documentation in the University’s
project files. For transactions not adequately supported by the project files, we asked the
University’s Division of Sponsored Research and the principal investigators on the related
awards to submit additional information.

We discussed our tentative findings and conclusions with NIH representatives during our audit.
NIH provided additional information regarding the nature of the awards to which the sampled
transactions were charged, and we considered that information in reaching our conclusions on
the allowability of the costs. 2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The University did not always claim selected costs charged directly to HHS awards in
accordance with Federal regulations and NIH guidelines. In our sample of 100 salary
transactions, 53 were allowable but 47 were not, and in our sample of 100 nonsalary transactions,
55 were allowable but 45 were not. 3 Based on our sample results, we estimated that, of
approximately $10.6 million in transactions, the University charged approximately $3 million in
unallowable transactions to HHS awards during FYs 2009 and 2010. (See Appendixes C and D.)



                            Unallowable Transactions Charged to HHS
                               Awards During FYs 2009 and 2010

                                                             Amount Unallowable
                       Salary transactions                           $425,762
                       Related F&A costs                              160,608
                       Subtotal salary costs                          586,370

                       Nonsalary transactions                              1,687,907
                       Related F&A costs                                     703,271
                       Subtotal nonsalary costs                            2,391,178

                           Total                                         $2,977,548

2
  We discussed our findings primarily with NIH during the audit because the majority of our sample transactions
related to NIH awards.
3
    For some of the transactions, we disallowed only a portion of the transaction.


                                                            3
The unallowable transactions occurred because the University did not provide adequate oversight
to ensure consistent compliance with Federal regulations. Although its finance and accounting
procedures often incorporated text from the Circular, the University largely left it to the
discretion of its individual colleges, departments, and principal investigators to interpret the
procedures correctly and to comply with Federal regulations. In addition, the University’s
Division of Sponsored Research did not review transactions to ensure that they complied with
Federal regulations.

FEDERAL REGULATIONS AND
NATIONAL INSTITUTES OF HEALTH GUIDELINES

The HHS grant administration rules require recipients of grant awards to comply with
regulations governing the use of Federal funds and to ensure that costs charged to those awards
were allowable under the applicable cost principles (45 CFR § 74.27(a)). The cost principles for
Educational Institutions are established in 2 CFR part 220, (OMB Circular A-21). These cost
principles require that, to be allowable, costs must be reasonable, be allocable, be treated
consistently, and conform to any exclusions or limitations set forth in the cost principles or
sponsored agreements (2 CFR part 220, App. A, § C.2). In addition, NIH awards are subject to
NIH guidelines, which include limitations on salary costs.

Pursuant to 2 CFR part 220, App. A, § C.3:

       A cost may be considered reasonable if the nature of the goods or services acquired
       or applied … reflect the action that a prudent person would have taken under the
       circumstances …. Major considerations involved in the determination of the
       reasonableness of a cost are: whether … the cost is of a type generally recognized
       as necessary for the operation of the institution or the performance of the
       sponsored agreement … Federal and State laws and regulations, and sponsored
       agreement terms and conditions; whether … the individuals concerned acted with
       due prudence … and, the extent to which the actions taken with respect to the …
       cost are consistent with established institutional policies and practices ….

Pursuant to 2 CFR part 220, App. A, § C.4.a:

       [a] cost is allocable to a sponsored agreement if it is incurred solely to advance
       the work under the sponsored agreement; it benefits both the sponsored agreement
       and other work of the institution, in proportions that can be approximated through
       use of reasonable methods, or it is necessary to the overall operation of the
       institution and … is deemed to be assignable in part to sponsored projects.

Included in 2 CFR part 220, App. A, § F.6.b, is specific guidance regarding the treatment of
charges for administrative and clerical expenses incurred within various departments of a college
or university, including the following: “The salaries of administrative and clerical staff should
normally be treated as F&A costs” (§ F.6.b.2). In addition, “Items such as office supplies,
postage, local telephone costs, and memberships shall normally be treated as F&A costs”
(§ F.6.b.3).

                                                4
The only specific exception to this guidance is provided for “major projects,” where direct
charging of administrative and clerical expenses may be appropriate. “Major projects” are
defined in § F.6.b.2 of the Circular as projects that require an “extensive amount of
administrative or clerical support which is significantly greater than the routine level of such
services provided by academic departments.” 4

Pursuant to 2 CFR part 220, App. A, § J.47.b, costs of services provided by specialized service
facilities, when material, must be charged directly to applicable awards based on actual usage of
the services on the basis of a schedule of rates or established methodology. The HHS Division
of Cost Allocation’s Best Practices Manual for Reviewing College and University Long-Form
Facilities & Administrative Cost Rate Proposals, dated December 2006, defines a specialized
service facility as:

         … a service center that provides highly complex or specialized services that
         include, but are not limited to telecommunication centers, super computers,
         animal care facilities (vivariums), wind tunnels and reactors. The costs for these
         services should be charged directly to the users through a billing rate mechanism.
         Billing rates should be calculated for each SSF [specialized service facility] that
         do not discriminate between Federal and non-Federal users including internal
         university activities. The billing rates should be designed to recover the aggregate
         costs of providing the service and shall include both direct and an allocable
         portion of F&A costs. Billing rates must be adjusted biennially to adjust for
         under or over recoveries. (p. 112).

Furthermore, Federal regulations require recipients’ financial management systems to provide
for accounting records, including cost accounting records, that are supported by source
documentation (45 CFR § 74.21(b)(7)).

NIH issued guidance dated December 10, 2001, regarding graduate student compensation.
NOT-OD-02-017 states: “the entry-level postdoctoral [National Research Service Award]
NRSA stipend provides a useful benchmark for an award amount that approximates a reasonable
rate of compensation for graduate students.” The guidance further states that NIH will limit its
award for graduate student compensation to the currently effective NRSA stipend level. The
stipend levels are updated annually. The guidance allows institutions to rebudget funds to charge
more than the awarded amount provided that the cost principles requiring reasonable
compensation are observed. In general, graduate student compensation will not be considered
reasonable if it is in excess of the amount paid to a first-year postdoctoral scientist at the same
institution performing comparable work. During our audit period, the NRSA stipend level for an
entry-level postdoctoral student was $37,368 per year. At FSU, entry level postdoctoral students
doing comparable work earned between $16,640 and $31,200 per year.


4
 Examples of major projects include large complex programs, projects that include extensive data accumulation, or
projects that are geographically inaccessible. The rules specify that direct charging of these examples to a sponsored
agreement is not appropriate “… if, in similar circumstances, the costs of performing the same type of activity for
other sponsored agreements were included as allocable costs in the institution’s F&A cost pools” (2 CFR part 220,
App. A, Exhibit C).

                                                          5
UNALLOWABLE COSTS

Salary Costs

Of the 100 transactions in our sample of salary costs, 47 transactions totaling $54,423 were not
allowable. Specifically:

      •    Twenty-three transactions were salary costs for administrative and clerical type work
           such as cleaning glassware, ordering supplies, and supervising data collections. These
           costs should not have been charged directly to the award because they involved salaries
           of administrative and clerical staff, and neither the nature of the work performed on the
           projects nor any other circumstances justified any unusual degree of administrative
           support or showed that the employees were necessary for the performance of the awards.

      •    Seventeen transactions were supported with documentation that did not corroborate the
           amount of effort charged to the award. For example, our sample included a direct charge
           to an award 5 for the biweekly salary of a laboratory researcher. The $1,536 charge
           represented 100 percent of the researcher’s compensation. According to the award’s
           principal investigator, 40 percent of the researcher’s effort was devoted to the award, and
           the remaining 60 percent involved managing a zebrafish facility and other nonresearch-
           related duties. Although these nonaward duties may have benefited Federal awards in
           general, they were administrative in nature and not assignable to a single award.
           Therefore, 60 percent ($922) of the researcher’s salary was unallowable.

      •    Four transactions were not supported with sufficient documentation. For example, the
           University charged a technology specialist’s salary to an award. 6 Although the employee
           was included in the award’s budget, the University could not provide an effort report
           documenting the time charged to the award.

      •    Three transactions did not comply with NIH guidelines that limit graduate student
           compensation to $37,368 per year. Our sample included direct costs to three awards 7 for
           a doctoral student. The employee’s annual compensation was $67,176, consisting of a
           salary of $30 per hour and tuition remission of $4,776. 8

5
    Award entitled Developing Models of Retinal and Eye Defects.
6
    Award entitled Genome Plasticity During ES Cell Differentiation to Neural Lineages.
7
 Awards entitled Social Communication Phenotype of Autism Spectrum Disorder in the Social Year, ½ Effects of
Parent-Implemented Intervention for Toddlers with Autism Spectrum Disorder, and Improving and Streamlining
Screening and Diagnosis of Autism Spectrum Disorder at 18-24 Months of Age.
8
 For purposes of estimating our sample results, we excluded tuition remission from the student’s total compensation
and questioned only the salary portion of his compensation. Because our sample transactions were biweekly salary
charges, we converted the NRSA yearly stipend level to an hourly rate calculated by dividing the yearly zero-level
postdoctoral stipend level, $37,368, by the 2,080 work hours in a year ($37,368 ÷ 2,080 = $17.89). The $12 per
hour paid in excess of the amount allowed by the guidelines was unallowable.


                                                          6
Based on our sample results, we estimated that these unallowable salary transactions resulted in
overcharges of $586,370 to HHS awards during our audit period ($452,762 in salary costs plus
$160,608 in related F&A costs).

Nonsalary Costs

Of the 100 transactions in our sample of nonsalary costs, 45 transactions totaling $247,621were
not allowable. Specifically:

       •   Eleven transactions were not supported with sufficient documentation. For example, the
           University charged student registration fees but did not provide support showing that the
           student was appointed to the award.

       •   Sixteen transactions were for general-use supplies, such as toner, that should have been
           treated as F&A costs and not charged directly to the award. 9

       •   Eleven transactions related to two specialized service centers were not charged in
           accordance with Federal regulations. For example, the rates charged by the animal
           facility and telecommunications centers were not designed to recover only the aggregate
           costs of the services. For the animal facility, the University computed the rates by
           averaging the rates that other universities charged. Moreover, the University did not
           perform biennial reviews on the facility to adjust the rates based on actual costs. The
           telecommunications center did not charge based on actual usage of the service provided.
           Furthermore, it charged administrative fees that were not part of the aggregate cost of
           providing the service.

       •   Seven transactions were not reasonable. For example, the University charged an award 10
           $3,968 for 5 backup computers as a contingency should any of the 10 primary computers
           became inoperable before a presentation. The University requested 10 computers in the
           award budget but purchased 15.

Based on our sample results, we estimated that these unallowable nonsalary transactions resulted
in overcharges of $2,391,178 to HHS awards during our audit period ($1,687,907 in nonsalary
costs plus $703,271 in related F&A costs).

INADEQUATE CONTROLS

These unallowable transactions occurred because the University did not provide adequate
oversight to ensure consistent compliance with Federal regulations. Although its procedures
often incorporated text from the applicable cost principles, the University largely left it to the
discretion of its individual colleges, departments, and principal investigators to interpret the
procedures correctly and to comply with Federal regulations, and the University’s Division of

9
    Award entitled Reducing Cardiovascular Disease Risk in Midlife and Older African Americans.
10
     Award entitled Influencing Employer Benefit Purchasing Behavior.


                                                         7
Sponsored Research did not review transactions to ensure that the colleges, departments, and
principal investigators proposed transactions that fully complied with Federal regulations.
Without adequate oversight, the University could not ensure that administrative expenses
charged as direct costs to HHS awards complied with applicable Federal regulations.

ESTIMATE OF UNALLOWABLE COSTS

Based on our sample results, we estimated that the University’s unallowable transactions resulted
in total overcharges of $2,977,548 to HHS awards during our audit period.

RECOMMENDATIONS

We recommend that the University:

   •   refund $2,977,548 to the Federal Government and

   •   enhance oversight of charges to Federal awards to ensure consistent compliance with
       Federal regulations.

UNIVERSITY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

University Comments

In written comments on our draft report, the University disagreed with our overall findings.
Specifically, the University stated that:

   •   66 of the 71 salary transactions that we questioned were allowable, either in whole or in
       part and

   •   55 of the 63 nonsalary transactions that we questioned were allowable, either in whole or
       in part.

The University also took exception to our methodology for extrapolating our sample results and
conclusions about the University’s internal controls.

The University’s written comments included a transaction-by-transaction discussion of our
findings and additional supporting documentation that had not been provided to us during our
fieldwork. These comments, excluding this additional information, are included as Appendix E.
The University requested that we not include the additional information in the final report.

Office of Inspector General Response

Based on our analysis of the additional information that the University provided with its
comments on our draft report, we reduced the number of unallowable salary transactions from 71
to 47 and the number of unallowable nonsalary transactions from 63 to 45. This reduction of


                                                8
unallowable transactions decreased our recommended overpayment recovery from $5.8 million
to approximately $3 million.

Salary Costs: Transactions Involved Administrative and Clerical Type Work

University Comments

The University disagreed with 33 of the 35 transactions that, based on the documentation that the
University provided us during our fieldwork, we determined involved employees whose duties
were administrative or clerical. In its comments on our draft report, the University stated that it
conducted a detailed analysis of the actual duties of the employees and determined that 33 were
technical employees, such as researchers, technicians, or lab assistants, and were assigned to a
specific project. The University also stated that, of the two employees who it agreed were not
technical employees, one was assigned to a major project; therefore, the direct charging of her
salary was appropriate. The University further noted several instances in which we questioned
an entire salary charge even though administrative duties were only part of the employees’ job
responsibilities. In these instances, the University disagreed that the entire salary was
unallowable.

Office of Inspector General Response

Based on our review of the additional documentation that the University provided with its
comments on our draft report, we agreed that 11 transactions that we had determined involved
employees whose duties were administrative or clerical were, in fact, related to technical
employees assigned to a specific project. Additionally, we agreed that one employee was
assigned to a major project; therefore, the direct charging of her salary was appropriate.
However, the remaining 21 transactions that the University disagreed with were for employees
performing administrative duties.

The employees’ administrative activities were not related solely to the project to which their
salary was charged. Rather, the administrative duties benefited multiple activities and could not
be tied to an individual project. Because the administrative activities did not solely benefit the
project to which the salary costs were charged, we applied cost principles at 2 CFR part 220,
App. A, § J.10.b (1)(b), which state: “The apportionment of employees’ salaries and wages
which are chargeable to more than one sponsored agreement or other cost objective will be
accomplished by methods which will … (3) Distinguish the employees direct activities from
their F&A activities.” We could not determine the percentage of effort spent on administrative
activities because the effort reports did not reflect time spent on administrative tasks. Therefore,
we questioned the costs.

Salary Costs: Documentation Did Not Corroborate Amount of Effort Charged

University Comments

The University disagreed with 25 of the 26 salary transactions that, based on the documentation
that the University provided us during our fieldwork, did not support the amount of effort

                                                 9
charged to the award. As an example, the University stated that we questioned the salary of one
employee because 60 percent of his duties involved managing a zebrafish facility and other
nonresearch-related duties. According to the University, the zebrafish facility is used only to
support the NIH grant, is a complicated endeavor, and the grant is the only activity in the lab;
therefore, the direct charging of the employee’s salary was appropriate.

Office of Inspector General Response

Based on our review of the additional documentation that the University provided with its
comments on our draft report, we agreed that 9 of the 26 transactions that we had questioned
were supported. However, the documentation for the remaining 16 transactions with which the
University disagreed did not support the amount of effort charged to the award. In the case of
the employee who managed the zebrafish facility, the NIH grant was not the only activity in the
lab. According to the University’s space survey, approved by the HHS Division of Cost
Allocation, the lab is also used for instruction; therefore, this grant is not the only activity in the
lab. The cost of the zebrafish facility, including the cost of the technician, is included in a per
diem rate that is used to charge costs to multiple projects.

Salary Costs: Transactions Not Supported With Sufficient Documentation

University Comments

The University disagreed with five of the seven transactions that we questioned because of
insufficient documentation. The University stated that in one case, we did not recognize that the
salary costs were not charged to the grant; they were cost shared. The University stated that it
provided additional documentation for each of the five transactions.

Office of Inspector General Response

The additional documentation that the University provided with its comments on our draft report
supported three of the seven transactions that we had questioned because of insufficient
documentation. The additional documentation that the University provided for the remaining
two transactions did not support the allowability of the costs. In regard to these two transactions,
the University stated that it claimed them as cost sharing and did not charge them to the grant.
Although the budget stated that the salaries would be claimed as cost sharing, the two
transactions were charged to the grant. The University did not provide any evidence showing
that it later transferred the cost of the transactions from the grant.

Salary Costs: Transactions Did Not Comply With National Institutes of Health Guidelines

University Comments

The University disagreed with the three transactions that we had determined were inconsistent
with NIH’s graduate student compensation guidelines. According to the University, “the
individual involved in these transactions was not serving on the grants to which he was charged



                                                   10
as a graduate student; thus, the University was not bound by the NIH graduate student
compensation guidelines.”

Office of Inspector General Response

Although the University stated that the individual involved in these transactions was not serving
on the grants to which he was charged as a graduate student, the individual received tuition
remission on each of the grants. The graduate student’s area of study was Communication
Disorders; his classes, including Doctoral Research, all related to autism spectrum disorders.
The NIH grants to which his tuition remission was charged were for autism spectrum disorders
research. Therefore, there is no meaningful distinction between the work this individual
performs on research grants as a graduate student and the work the individual was hired to
perform in his capacity as a speech language pathologist. There is no support for hiring the
individual as a graduate student on one research grant and in a professional capacity on another.
Further, paying the individual less than what the University would have paid a practicing speech
language pathologist in the area does not support the salary charges to the NIH grant. As stated
in the report, the NIH guidelines apply to graduate students at the grantee institution who are
supported by NIH research grants and cooperative agreements. Tuition remission is included in
the graduate student compensation limits. Therefore, we audited against the NIH guidelines.

Nonsalary Costs: Transactions Not Supported With Sufficient Documentation

University Comments

The University disagreed with 23 of the 24 transactions that we had determined were not
supported with sufficient documentation. As an example, the University noted five transactions
for tuition remission and stated that it had provided us relevant appointment forms, effort reports,
and tuition waiver documentation. The University stated that it also supplied copies of the
training plans and progress reports to support two transactions for tuition charged to NIH training
grants.

Office of Inspector General Response

Based on our review of the additional documentation that the University provided with its
comments on our draft report, we agreed that 13 of the 24 transactions that we had questioned,
including the transactions for tuition remission, were supported. The additional documentation
provided for the remaining 11 questioned transactions did not support the transactions.

Nonsalary Costs: Transactions for General-Use Supplies

University Comments

The University disagreed with 14 of the 18 transactions that we had determined were the type of
cost generally treated as an F&A expense. The University stated that the transactions were
primarily for lab supplies, which it believes are not general-use supplies, and that the items were
readily identifiable with the specific sponsored project to which they were charged. As an
example, the University noted that we questioned the cost of pipette tips, which are lab supplies.
                                                11
The pipette tips were charged to a project that was the only sponsored or nonsponsored project
being conducted in the lab where they were used. In another example, the University stated that
a freezer was charged directly to a grant because it was needed for the project and was used only
to hold samples for the grant to which it was charged.

The University acknowledged that the auditors identified some lab supplies that could not readily
be identified with a specific project. Although the University disagreed with the auditors that lab
supplies should be treated as F&A costs, it did agree that lab supplies benefitting multiple
projects should be allocated to sponsored projects on a reasonable basis. The University noted
that most of the Principal Investigators whose lab supply charges we questioned had established
reasonable allocation methodologies.

Office of Inspector General Response

The University provided additional support justifying 2 of the 18 transactions that we had
determined were the type of cost generally treated as an F&A expense. The University
supported the freezer as necessary for, and related specifically to, the project to which it was
charged. In regard to lab supplies, such as the pipette tips, the labs where the supplies were used
were also used for instructional purposes per the HHS Division of Cost Allocation space survey.
The lab supplies are general-use items, as indicated by the University’s statement that these
items “are the most basic building blocks of any scientific laboratory….” Also, the University
noted that most of the Principal Investigators whose lab supply charges we questioned had
established reasonable allocation methodologies. However, while conducting our audit work,
most of the Principal Investigators informed us that the allocation method they actually used
was: The project that first needed an item ordered it and charged the entire cost of the item to the
award. This methodology does not constitute a fair and equitable manner of allocating cost.

Nonsalary Costs: Specialized Service Centers’ Costs Not Charged in Accordance With
Federal Regulations

University Comments

The University disagreed with the 11 transactions related to 2 specialized service centers that we
had determined were not charged in accordance with Federal regulations. It stated that the
transactions related primarily to the animal facility. According to the University, it retroactively
completed a detailed analysis of its animal facility rates for FYs 2009 and 2010 and determined
that Federal grants were actually undercharged for services.

Office of Inspector General Response

The University did not comply with Federal regulations governing specialized service centers
(2 CFR part 220, App. A, § J.47.b). The University performed a retroactive analysis of one of its
specialized service centers after our audit took place. The University did not provide any
supporting documentation for its analysis. However, we noted that the center’s expenses
included unallowable items such as memberships and office supplies. We also noted that the



                                                 12
expenses included a large amount for “technicians’ salaries.” During our audit of salary charges,
we determined that these positions were charged directly to Federal grants.

Nonsalary Costs: Transactions Not Reasonable

University Comments

The University disagreed with 7 and partially disagreed with 1 of the 10 transactions that we had
identified as unreasonable. For example, the University stated that a $43,740 item of equipment
that we questioned was needed for the project and that prior NIH approval was not required
because the purchase of the equipment did not represent a change in scope for the project. In
another example, the University stated that our supposition that five computers were purchased
for contingency purposes was incorrect. According to the University, the computers were
needed to accommodate additional recruits working on the project and were used solely to
collect study data.

Office of Inspector General Response

Based on our review of the additional documentation that the University provided with its
comments on the draft report, we agreed that the costs related to 3 of the 10 transactions that we
had questioned were reasonable. For example, the University supported the need for the $43,740
item of equipment. However, we disagree with the University’s position in regard to the five
computers purchased for one grant. The Principal Investigator told us that the computers were
purchased as backups in case one broke down during a presentation.

Statistical Methodology

University Comments

The University stated that its repayment of costs should be limited to any unallowable costs
agreed to through the audit resolution process because our statistical methodology and
extrapolation was flawed. The University stated that, although it was denied any meaningful
opportunity to access our statistical methodology, it was able to make several observations
regarding the sampling:

   •   The University stated that, although we professed to have selected our sample from cost
       categories that are usually treated as administrative or clerical expenses, very few of the
       selected transactions were actually administrative or clerical expenses.

   •   The University stated that our sample did not appear to be reasonably representative. For
       example, the University noted that one department is associated with approximately
       37 percent of all questioned costs even though it contributed only 13 percent of the
       University’s HHS expenditures over the FY2009-2010 period.

   •   The University stated that because it believes the vast majority of the questioned costs are
       allowable, we cannot judge the University’s internal controls as weak and infer the

                                                13
       existence of systemic deficiencies that would lead to widespread mischarging and justify
       extrapolation of the audit results.

Office of Inspector General Response

The Departmental Appeals Board has supported our use of statistical sampling to calculate
disallowances in accordance with our longstanding policies. Our audit approach and methodology
were explained to the University during the entrance conference at the outset of the audit, during
the course of the audit, and at the exit conference. In regard to the University’s observations:

   •   We selected general ledger accounts within the University’s accounting system that are
       generally recognized as administrative and clerical in nature and usually treated as
       indirect costs. Once sample items were randomly selected, we reviewed them to
       determine whether each was allowable in accordance with Federal regulations and
       applicable guidelines.

   •   Statistical samples, by nature, are always representative of the population from which
       they are selected. Neither the number of transactions nor the dollar value of the
       transactions on individual grants bias a statistically random selection.

   •   We disagree that the vast majority of costs were allowable. Of the 200 sample items
       reviewed, 46 percent were determined unallowable. Moreover, the deficiencies noted in
       the University’s controls were based on a review of its policies and interviews with
       University personnel. The results of the audit verified that weaknesses existed. Finally,
       it is not necessary that a majority of transactions be unallowable to justify extrapolation
       of audit results.

Internal Controls

University Comments

The University strongly disagreed with our conclusion that it did not provide adequate oversight
to ensure consistent compliance with Federal regulations. The University stated that it has strong
policies and procedures, educates its research community on them, and monitors compliance.
The University noted that its internal controls are reflective of what “is actually a very low
incidence of unallowable costs being charged to Federal awards.”

Office of Inspector General Response

We disagree with what the University characterizes as “a very low incidence of unallowable
costs being charged to Federal awards.” The University describes its controls as a review of
purchase orders over $1,000, journal entries, and personnel appointments. Most general
supplies are under $1,000. Journal entries show nothing other than the account charged, the
amount, and occasionally the vendor. Similarly, personnel appointments do not describe duties
performed. The large incidence of unallowable costs demonstrates that the University’s controls
need improvement.

                                                14
APPENDIXES
                                                                                        Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY—
                             SALARY TRANSACTIONS

POPULATION

The population consisted of salary transactions that were charged to Department of Health and
Human Services (HHS) awards from fiscal years (FY) 2009 and 2010. These transactions were
for employee categories that are generally administrative and clerical in nature and treated as
indirect costs and recovered through Florida State University’s (the University) negotiated
facilities and administrative (F&A) rates. These transactions were charged directly to Federal
awards.

SAMPLING FRAME

We received from the University an Excel file totaling $2,231,861 for FYs 2009 and 2010 that
contained 4,375 salary transactions, which are normally treated as F&A costs but were charged
directly to HHS awards. We identified and removed 770 transactions that were less than $100.
The remaining 3,605 transactions totaling $2,199,338 were our sampling frame.

SAMPLE UNIT

The sample unit was a transaction.

SAMPLE DESIGN

We used a stratified random sample containing three strata as follows:

                                                   Number of               Value of
      Stratum              Range                  Transactions           Transactions
         1       $100 through $999.99                2,774                $1,068,972
         2       $1,000 through $2,499.99             816                  1,074,366
         3       $2,500 and above                      15                    56,000
                            Total                    3,605                $2,199,338

SAMPLE SIZE

We selected a sample size of 100 transactions. The sample size by stratum was:

            Stratum         Number of Sample Items
               1                      35
               2                      50
               3                      15
             Total                   100
                                                                                    Page 2 of 2


SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each stratum. After generating the random
numbers for strata 1 and 2, we selected the corresponding frame items. For stratum 3, we
selected all the items.

ESTIMATION METHODOLOGY

We used the OIG, OAS statistical software to estimate the total amount of unallowable salary
costs claimed as direct costs. We also estimated the amount of unallowable F&A costs
associated with the unallowable salary costs.
                                                                                    Page 1 of 2


              APPENDIX B: SAMPLE DESIGN AND METHODOLOGY—
                         NONSALARY TRANSACTIONS

POPULATION

The population consisted of all nonsalary transactions that were charged directly to HHS awards
from FYs 2009 and 2010. These transactions were for categories generally treated as indirect
costs and recovered through the University’s negotiated F&A rates.

SAMPLING FRAME

We received from the University an Excel file totaling $18,035,772 for FYs 2009 and 2010 that
contained 84,675 nonsalary transactions, which are normally treated as F&A costs but were
charged directly to HHS awards. We removed the 60,461 transactions in the “Contract and
Grant” and “Scholarship Award” accounts, which totaled $9,855,544. We then removed 5,038
transactions less than or equal to $10. The remaining 19,176 transactions totaling $8,417,374
were our sampling frame.

SAMPLE UNIT

The sample unit was a transaction.

SAMPLE DESIGN

We used a stratified random sample containing three strata as follows:

                                                Number of              Value of
    Stratum           Range                    Transactions          Transactions
       1    $10.01 through $749.99                17,645              $2,733,399
       2    $750 through $19,999.99                1,514               3,218,907
       3    $20,000 and above                         17               2,465,068
                      Total                       19,176              $8,417,374

SAMPLE SIZE

We selected a sample of 100 transactions. The sample size by stratum was:

         Stratum        Number of Sample Items
            1                     30
            2                     53
            3                     17
          Total                  100
                                                                                   Page 2 of 2


SOURCE OF RANDOM NUMBERS

We generated the random numbers with the OIG, OAS, statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample items in each stratum. After generating the random
numbers for strata 1 and 2, we selected the corresponding frame items. For stratum 3, we
selected all the items.

ESTIMATION METHODOLOGY

We used the OIG, OAS, statistical software to estimate the amount of unallowable nonsalary
costs claimed as direct costs. We also estimated the amount of unallowable F&A costs
associated with the unallowable nonsalary costs.
                         APPENDIX C: SAMPLE RESULTS AND ESTIMATES—
                                    SALARY TRANSACTIONS

                                 Sample Results: Unallowable Transactions
                                                                                                           Value of
                                                                                                            F&A
                                                                                                          Associated
                                                                                                            With
                                                                   Number of            Value of         Unallowable
           Frame        Value of       Sample      Value of       Unallowable         Unallowable        Transactions
                                                                                                                 1
Stratum     Size         Frame          Size       Sample         Transactions        Transactions
   1        2,774     $1,068,972           35        $12,228            12                $2,341               $760

   2           816      1,074,366          50         66,875            24                20,983              9,281

   3            15         56,000          15         56,000            11                31,099              6,675

 Total      3,605     $2,199,338         100       $135,103             47               $54,423             $16,716


                             Estimated Value of Unallowable Transactions
                         (Limits Calculated for a 90-Percent Confidence Interval)

                                      Unallowable Transactions                 Unallowable F&A

                Point estimate                   $559,040                         $218,327
                Lower limit                       425,762                          160,608
                Upper limit                       692,317                          276,047




   1
    The University’s negotiated F&A rates were 67 percent for research performed in the National High Magnetic
   Field Laboratory, 47% for on-campus research, 26 percent for off-campus research, and 8 percent for training
   grants. We applied the applicable F&A rate to each unallowable transaction and added the amounts to arrive at the
   F&A associated with unallowable transactions.
                          APPENDIX D: SAMPLE RESULTS AND ESTIMATES—
                                   NONSALARY TRANSACTIONS

                                     Sample Results: Unallowable Transactions

                                                                                                                 Value of
                                                                                                                  F&A
                                                                                                                Associated
                                                                                                                  With
                                                                        Number of            Value of          Unallowable
              Frame        Value of       Sample        Value of       Unallowable         Unallowable         Transactions
                                                                                                                       1
Stratum        Size         Frame          Size         Sample         Transactions        Transactions
   1          17,645      $2,733,399          30           $3,999             13                $1,405                $351

   2            1,514      3,218,907          53          122,776             25                57,277              24,365

   3               17      2,465,068          17       2,465,068               7               188,939               88,801

 Total        19,176      $8,417,374         100       $2,591,843             45              $247,621            $113,517

                                 Estimated Value of Unallowable Transactions
                             (Limits Calculated for a 90-Percent Confidence Interval)

                                          Unallowable Transactions                 Unallowable F&A

                    Point estimate                 $2,651,516                            $990,903
                    Lower limit                     1,687,907                             703,271
                    Upper limit                     3,615,125                           1,278,534




       1
        The University’s negotiated F&A rates were 67 percent for research performed in the National High Magnetic
       Field Laboratory, 47% for on-campus research, 26 percent for off-campus research, and 8 percent for training
       grants. We applied the applicable F&A rate to each unallowable transaction and added the amounts to arrive at the
       F&A associated with unallowable transactions.
                                  Page 1 of 15


APPENDIX E: UNIVERSITY COMMENTS
Page 2 of 15
Page 3 of 15
Page 4 of 15
Page 5 of 15
Page 6 of 15
Page 7 of 15
Page 8 of 15
Page 9 of 15
Page 10 of 15
Page 11 of 15
Page 12 of 15
Page 13 of 15
Page 14 of 15
Page 15 of 15
